No.

IN THE SUPREME COURT OF THE UNITED STATES

WILLIE E. ASHE, JR.
v.

UNITED STATES
ON PETITION FORWRIT OF CERTIORARI
TO THE DISTRICT OF COLUMBIA COURT OFAPPEALS

PETITION FOR WRIT OF CEBTIORARI

Dana E. Hofferber, Esquire
Counsel of Record for Wille E. Ashe, Jr.

DELH
4201 Wilson Blvd. #110, Ste. 235
Arlington, VA22203
delhcia@smail.com
571-310-4081

Question presented

Whether the District of Columbia Court of Appeals erred

in failing to reverse

petitioner's convictions pursuant to the Sixth Amendment to the United States
Constitution as interpreted by Geders v. [Inited States,425 U.S. 80 (1976), and its
progeny.

List of related proceedings
United States v. Willie E. Ashe, Jr., No. 2018 DVM 00795
pending in D.C. Superior Court on motion for new

-

collateral proceeding

trial pursuant to D.C.

110 based upon an allegation of ineffective assistance of

Code $ 23-

trial counsel

Citation of the opinions and orders entered below

Willie E. Ashe, Jr. v. United States, No. 18'CM'1197, mem. op. & jdgut (D.C. June
L2,2020)

Willie E. Ashe, Jr. v. United States, No. 18'CM-1197, order (D.C. Sept. 23, 2020)
United States v. Willie E. Ashe, No. 2018 DVM 00795 (D.C. Super. Ct. Nov. S, 2018)

Jurisfictional statement
On November 8, 2018, Willie E. Ashe, Jr., was convicted in the District of
Columbia Superior Court ofan assault upon and attempted threat to do bodily harm

to Kenise Smith. On June 12, 2O2O, the District of Columbia Court of Appeals
af6rmed the convictions. Ashe's petition for rehearing or rehearing en banc was
denied on September 23,2O2O. Proceeding in forma pauperis,l Ashe requests this

Court determine whether the affirmance of his convictions conflicted with Geders

v.

(Jnited States,425 U.S. 80 (1976), and/or subsequent caselaw interpreting Geders.
,See

Supreme Court Rule

f0 G), (c). In the alternative, he argues his

case presents

an important question of federal law that has not been, but should be, settled by this

Court.

1

.9ee

Supreme Court RuIe 10 (c). This Court has jurisdiction pursuant to 28

The undersigrred has prepared this petition pursuant to her appointment to
represent the indigent criminal defendant on appeal under D.C. Code $ 11'2601 e/
seq.

U.S.C.

S

L257, as Ashe claims the decision of the "highest court of a State" violated a

right established by the Constitution ofthe United States.
Constitutional provision at igsue
The Sixth Amendment to the United States Constitution states as follows:

In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and
cause ofthe accusationi to be confronted with the witnesses against himi
to have compulsory process for obtaining witnesses in his favor, and to
have the assistance ofcounsel for his defense.
Statement of the case

At trial, the government presented evidence that on May 12,2Ot8, Ashe struck
Smith on the head with a metal pole and threatened to shoot her. Tr. ll'12,20'21
(Oct. 25, 2018). By contrast, Ashe testified Smith assaulted him with a knife,
threatened to have him killed, and injured her head when she fell due to intoxication.

Id. at 33'43; Tr. 4'5 (Nov. 2,2O1$.
The trial judge interrupted Ashe's cross-examination to excuse defense counsel

to another courtroom. Tr. 50'51 (Oct.25,2018); Tr. 17-18 (Nov. 2,2OlS). The judge
instructed Ashe as follows: "Don't discuss your testimony with anybody and we'll call
you back up as soon as Mr. Irving returns." Tr. 5L (Oct.

25,201$. After

a while, the

court broke for lunch, but Ashe could not be found to be informed of the break. Id. at

52. The court later adjourned for the day without lifting its sequestration order and
without Ashe having returned to the courtroom. Id. at 52-54. When trial resumed
several days later, the judge verifi.ed that defense counsel "had a chance to talk to"

Ashe. Tr. 2 (Nov. 2,20t$. No party raised any issue at trial as to the sequestration
order.

On appeal, the undersigned argued the trial court committed plain error in
failing to lift its sequestration order prior to or during the several'day break in Ashe's

cross'examination. The Court of Appeals disagreed, stating Ashe was not present
when his

trial adjourned for the day so need not

be presumed to have believed the

sequestration order remained in place. On petition for rehearing and/or rehearing erl
banc, t}ae undersigned argued the violation of Gederc was presumptively prejudicial.

The petition was denied.

Argument
Pursuant to Geders v. tlnited States, 425 U.S. 80, 35-86 (1976), the trial

court's directive that the testi-fuing defendant not "discuss [his] testimony with
anybody''during the break in his trial was a violation of his Sixth Amendment right
to the assistance of counsel that did not require a showing of actual prejudice. The
order initially applied only to a short break, Iikely permissible under
488 U.S. 272
day break in

Pery

v. Leeke,

O98$. However, the subsequent application of that order to a severaltrial brought it within Geders.

See United States v. Cobb,905 F. 2d 784,

791-92 @th Cir. 1990) (examining the difference between Perry and. Gederd

.

District of Columbia caselaw required reversal ofAshe's convictions regardless

oftrial

counsel's failure to object and without the need for a showing ofprejudice. ,See

Martin v. United

State,s, 991 A.2d 791 (D.C. 2010) (noting the burden lies

with the

government to show a valid waiver of the right to the assistance of counsel, not on

the defendant to show a desire to exercise that right); Jackson v. United States,420

A.2d l2O2 (D.C. 1979). Li-kewise, this Court has rejected the contention that a
defendant sequestered during his testimony must show actual pryiudice. See Geders,
425 U.S. at 85'86; see also Mudd v. [Inited States,798 F.2d 1509 O.C. Cir. 1986);

[Jnited States v. Triumph Capital Group, lnc.,487 F.3d 124, I31, (2d Cir. 2007).

Further, the structural error was not cured by inquiring of counsel upon the return
to

trial whether he had time to speak with Asbe. Cf. Triumph, 487 F.3d at 133'34.
For these reasons, the Court of Appeals' decision in this case conflicted with

Geders,

with prior decisions ofthe highest court of the District of Columbia, and with

prior decisions of United States Courts ofAppeals interpreting Geders. To the extent
this case presents a novel issue offederal law, this Court should settle the question.

Signed,

Dq",,-

"l-

Tet-

Dana E. Hofferber, Esquire
Counsel of Record for Willie E. Ashe, Jr.

DELH
4201 Wilson Blvd. #110, Ste. 235
Arlington, Y422203
delhc'ia@gmtril.com
571-310-4081

